0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Benjamin
Caleb Trott v. State of Maryland, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail service to
the following parties listed below, this 24th day of
August, 2021:
Derek Simmonsen
Assistant Attorney General
Criminal Appeals Division
Office of the Attorney General
200 Saint Paul Place, 17th Floor
Baltimore, MD 21202
(410) 576-6422
dsimmonsen@oag. state .md. us
Counsel for Respondent
Paul B. DeWolfe
Public Defender
Jeffrey M. Ross
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, MD 21202-1608
(410) 767-8528
jeffrey.ross@maryland.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 24, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{lu_# c:)-?

1

d{Jr:)l

d0-tJ,Q~

Notary Public
[seal]

JOHN D. GALLAGHER
:itary Public, State ol Ohio
My Commission Expires
r- ebruary 14, 2023

•1

